fl
-

■

ft

'0

f?>

(Ti’

oJO

V'-'

\

AR

-t

\ v-jr?

f

No.

Supreme Court, U.S.
FILED

DEC 0 8 11
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Lan Tu Trinh

- PETITIONER

(Your Name)
vs.
Citizens Business Banking & Vanessa Barbetti

- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Court of Appeals in the Third Circuit

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Lan Tu Trinh
(Your Name)
775 Mustin Lane
(Address)
Villanova, PA 19085
(City, State, Zip Code)
215-313-3858
(Phone Number)

QUESTIONS PRESENTED
1. Should Citizens Business Banking consider the protection of its customers’
money and line of credit as one of its essential responsibilities?
2. When the bank is notified that a school’s operations are undermined by
sabotage, fraudulence, conspiracy, and contentious and complicated legal
battles, should the bank strive to prevent procedural abuses that would
exacerbate harm towards schools as educational institution and business?
3. Should Citizens Business Banking implement safeguards to prevent the
acceptance of inadequately approved documentation or unauthorized money
transfers - especially when concerns of institutional sabotage have been
presented?
4. How does Citizens Bank protect their clients’ privacy and attain their clients’
authorization for any release of money or credit line when it neglects to
contact its clients of significant money transfers or changes?
5. When Citizens Business Banking claims that money is “automatically and
electronically transferred,” does this imply that no one at Citizens Bank
facilitates transfers, or checks the validity of a transfer?
6. Is the Respondent’s use of the phrase “automatically and electronically
transferred” a means of covering up the person that approved the
unauthorized transfer?
7. Should Citizens Business Banking implement policies and consequences that
would discourage such harmful actions towards its integrity and federal law?

LIST OF PARTIES

[\/a11 parties appear in the caption of the

case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
19-2468, Lan Tu Trinh v Citizens Business Banking & Vanessa M. Barbetti
US Court of Appeals for the Third Circuit

18-1662, Lan Tu Trinh v Citizens Business Banking & Vanessa M. Barbetti
US District Court, Eastern District of Pennsylvania

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

10

INDEX OF APPENDICES
A. Order filed by the U.S. Court of Appeals for the Third Circuit on
September 14, 2020 denying Appellant’s Petition for Rehearing.
B. Judgment and Opinion filed by the U.S. Court of Appeals for the Third
Circuit on May 29, 2020.
C. Order and Memorandum Opinion filed on May 29, 2020 by the U.S.
District Court for the Eastern District of Pennsylvania.
D. Fictitious Name document from the beginning of LTIBS in 1993, which
shows Lan Tu Trinh as President, primary owner, and founder
E. Default Judgment on February 9, 2016 from Court of Common Pleas
F. Various police reports about the misconduct and fraudulence committed
by Kathleen Trinh and her team against LTIBS

G. Transcript of hearing on August 22, 2017 in Court of Common Pleas
H. “Consent” order on August 23, 2017.1 had not given consent to the terms
of the order, as seen in Appendix F.
I. The invoice of the unauthorized transfer of LTIBS’ line of credit.
J. Communications with Vanessa M. Barbetti and other employees of
Citizens Business Banking.
K. The transcript of the pretrial conference that occurred on September 13,
2018 in the U.S. District Court regarding this matter.

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

STATUTES AND RULES
18 U.S. Code 1384, Securities and Commodities Fraud

10

18 U.S. Code § 1344. Bank fraud

10

31 CFR § 1020.320 Reports by banks of suspicious transactions

10

18 U.S. Code § 1349. Attempt and conspiracy

OTHER

10

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
y\

to

The opinion of the United States court of appeals appears at Appendix _
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[|/ is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[fc^For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
timely petition for rehearing was denied by the United States Court of
September 14, 2020
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix 1
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date)
(date) on
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
18 U.S. Code § 1344. Bank fraud:
Whoever knowingly executes, or attempts to execute, a scheme or artifice—
(1) to defraud a financial institution; or
(2) to obtain any of the moneys, funds, credits, assets, securities, or other
property owned by, or under the custody or control of, a financial institution,
by means of false or fraudulent pretenses, representations, or promises;
shall be fined not more than $1,000,000 or imprisoned not more than 30 years, or
both.
(Added Pub. L. 98-473. title II. § 1108^1. Oct. 12, 1984, 98 Stat. 2147: amended
Pub. L. 101-73. title IX. § 96Ilk). Aug. 9, 1989, 103 Stat. 500: Pub. L. 101-647. title
XXV. S 250401. Nov. 29, 1990, 104 Stat. 4861.1

31 CFR § 1020.320 Reports by banks of suspicious transactions:
(a) General.
(1) Every hank shall file with the Treasury Department, to the extent and in
the manner required by this section, a report of any suspicious transaction
relevant to a possible violation of law or regulation. A bank may also file with
the Treasury Department by using the Suspicious Activity Report specified in
paragraph (b)(1) of this section or otherwise, a report of any suspicious
transaction that it believes is relevant to the possible violation of any law or
regulation but whose reporting is not required by this section.

18 U.S. Code § 1349. Attempt and conspiracy:
Any person who attempts or conspires to commit any offense under this chapter
shall be subject to the same penalties as those prescribed for the offense, the
commission of which was the object of the attempt or conspiracy.

3

STATEMENT OF THE CASE
1. I, Petitioner Lan Tu Trinh, was co-owner of LT International Beauty School,
Inc. (LTIBS) with my sister, Kathleen Lien Trinh. I was president of LTIBS
since 1993 and thereafter at all relevant times. (Appendix D)
2. The school obtained accreditation in 1998 and was since in good standing
academically and financially.
3. Kathleen refused to compensate me or share access to records or bank
accounts; she attempted to steal ownership of LTIBS.
4. For her misconduct, threats, and aggressive and abusive behavior, I filed a
lawsuit against her on January 7, 2016 in the Court of Common Pleas in
Philadelphia, PA.
5. The proceedings that occurred in the Court of Common Pleas did not provide
relief to the damages I have endured. The court issued a default judgment in
February 9th, 2016, ordering Kathleen to give back control and access of
various accounts and documents to Plaintiff (Appendix E).
6. My business partner realized she would be unable to push me out and take
over LTIBS, so she resolved to destroy and dissolve LTIBS to start a new
business without me. She ignored the default judgment and actively
sabotaged the school’s operations hereafter, conspiring to shut down LTIBS
with her legal team through fraudulent activities in documentation and
banking matters, the Court of Common Pleas’ favor, and the complicity of the
LTIBS’ auditor, accountants, and federal funding agency. She wanted her

4

own cosmetology school business without my involvement and without
competition.
7. Due to Kathleen and her legal team’s efforts at sabotage, such as her
previous siphoning of over $1 million from LTIBS and the agitation of
students and teachers to cause disruptions, I operated LTIBS with little more
than my personal funds and without receipt of the tuition and governmental
financial aid funds for students through 2016-17. Kathleen took funds from
her students and turned them over to me to educate without their tuition
secured, and it is likely that Kathleen used funds she stole for personal use
and the establishment of her own school. She had Citizens Bank and her
legal team support in fraudulent activities.
8. In addition, Kathleen would sign documents and inappropriately act in
authority without my knowledge or authorization, which ultimately
undermined the business and prevented its recovery.
9. Petitioner had reported these incidents to the police and detective in
Philadelphia (Appendix F), but they neglected to protect the school’s
operations and the students’ education even in the face of these facts. Even
so, the petitioner continued to manage LTIBS with hope of recovery after the
end of the case.
10. Kathleen and her legal team stole LTIBS’ premises on July 11th, 2017 by
locking me out with the Philadelphia Court of Common Pleas’ support, and
they dissolved LTIBS on August 23rd, 2017, all without my consent and

5

giving me $0.00. They planned to kick me out of my own private properties
and business, and steal my funds from the line of credit.
11. On July 10th, 2017, the Court of Common Pleas held a hearing that resulted
in my loss of ownership over LTIBS properties despite my expressed
disagreement and unwillingness towards the deal, without any compensation
afterwards. I was forced and ordered by the court to sign away my properties,
locking me out of the premises immediately.
12. On August 22nd, 2017, the Court of Common Pleas held a hearing that
dissolved LTIBS through a “consent” order while ignoring my objections.
(Appendix G, page 46, line 4 & Appendix H.) I had repeatedly mentioned that
I did not agree to any closure or sale, especially because they did not have the
money to pay, but the court and its legal persons ignored and misrepresented
me and twisted my words, including my own counsel. (G, p.36, line 18.)
13. In January 2018, $87,550.00 was transferred from the Citizens Bank account
of LTIBS without notifying me or asking for my authorization. The money
was transferred from LTIBS’ line of credit at Citizens Bank to the
Department of Education, without my authorization. The credit line would
not have expired until 2019. (Appendix I)
14. The Respondent, Citizens Business Banking, claims that this money was
“automatically and electronically transferred.” This statement is the bank
trying to not take any blame.

6

15.1 have asked the Respondents why they allowed for the withdrawal of LTIBS
monies without my authorization. I also asked for the identity of the
employee that facilitated this improper transfer. There were no other
answers from her or other bank employees regarding these questions.
(Appendix J)
16. When I received the form used to justify the transfer of monies, it did not
have my signature and only possessed one other signature (Appendix K).
17. Ms. Barbetti confirmed that two people had to sign for confirmation of any
transaction, and the district court verified that it was not my signature.
(Appendix L, p. 8, line 4-6)
18.1 filed my complaint against Citizens Business Banking and Vanessa
Barbetti on April 17, 2018 in the U.S. District Court.
19. The pretrial conference occurred on September 13, 2018, in which the court
ordered the defendant to get a higher manager to set up a meeting and
apologize. (Appendix L, p. 12, line 11-19)
20. The defendants did not comply with the court by refusing to schedule a
meeting with a higher manager for me, which the court requested in the
enclosed transcript of that hearing.
21.1 have not received any answers that ensured the bank acted in consideration
of my business’ security, nor have I received any apologies. They ignored
their criminal activity, and I believe they are attempting to cover up their
violation of United States law by ignoring the court’s order.

7

REASONS FOR GRANTING THE WRIT
As a direct result of this faulty and lax procedure on the part of Citizens
Bank, the Bank permitted and facilitated the school’s sole funding source to
disappear and the withdrawal of its line of credit prior to legitimate confirmation
from Petitioner as LTIBS’ president. The school was put in a significantly more
difficult position to continue due to lack of economic viability. Such an extremely
important event, the withdrawal of US Department of Education funding, should
not have been so easily facilitated due to poor procedural practices, as it became
illegal activity to steal the funds.

The form used to justify the transfer of monies did not have my signature and
only possessed one other signature. Thus, the transfer was unauthorized and
founded upon fraudulence. (18 U.S. Code 1344) Despite being alerted of the
suspicious nature of this transaction, Citizens Bank neglected to take action in
reporting or rectifying the issue. (31 CFR 1020.320). Citizens Bank’s willful
negligence should be considered as part of conspiracy with the saboteurs of the legal
actors involved in the case from the Court of Common Pleas in Philadelphia, as the
Respondent had knowingly proceeded without my verification to take money from
the LTIBS bank account to send to US Department of Education. (18 U.S. Code
§ 1349)

The Defendant has claimed that the federal courts do not have subject matter
jurisdiction, but the bank’s negligence assisted in the fraudulence that plagued the

8

case in the Court of Common Pleas and should be considered a considerable security
issue beyond the scope of a single individual. This issue calls into question what
protections banks are legally required to provide to consumers and businesses
throughout the country. The bank must protect their clients’ privacy and attain
their clients’ authorization for any release of money or credit line, specifically with
the proper signature and identity of the credit line’s owner. The value of my claims
exceed $75,000, which is additional reason of the federal court’s subject matter
jurisdiction. Additionally, since the Appellee is a federally insured FDIC institution,
this is a case of the bank’s noncompliance to federal law and the federal
implications of this matter have not been explored.

The actions of Citizens Banking display fraudulence and improper conduct, and
the court must discourage further negligence and assistance in fraudulent activities
by the Respondent and other banking institutions without consequence. I request
for the court to order Citizens Bank to return my money and pay for damages,
including the loss of my business when its actions took away its financial viability.

9

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Lan Tu Trinh

Date:

December 9, 2020

